TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Revised Fiscal Year 2005 Forward
                                 Pricing Proposal



                                         September 2005

                             Reference Number: 2005-1C-122




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 26, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Revised Fiscal Year 2005 Forward Pricing Proposal
                             (Audit # 20051C0232)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s April 27, 2005, revised
 forward pricing indirect rate proposal for Fiscal Year (FY) 2005. The purpose of the
 examination was to determine the reasonableness of the proposed forward pricing rates for the
 remainder of the contactor’s FY 2005.
 The DCAA stated that the contractor submitted adequate cost or pricing data. The proposal was
 prepared in accordance with applicable Cost Accounting Standards and provisions of different
 Federal Government regulations. The DCAA considered the proposal, as revised, to be
 acceptable as a basis for negotiating FY 2005 indirect rates to be used for forward pricing
 purposes for FY 2005 only. The DCAA took no exceptions to the revised overhead and General
 and Administrative rates.
 The DCAA also stated that the contractor’s accounting system is considered adequate for
 accumulating, reporting, and billing costs on Federal Government contracts. The estimating
 system is considered adequate to ensure the forward pricing rates are based on accurate,
 complete, and current cost or pricing data.
                       Revised Fiscal Year 2005 Forward Pricing Proposal




The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
